TABLA DE TASAS Y CARGOS DEL CONTRATO DE TARJETA DE CRÉDITO
CARGOS DE TASAS Y CARGOS DE INTERESES
Tasa Efectiva Anual (APR)
para Compras
APR para My Chase
LoanSM

14.99% hasta 23.99%. Esta APR variará con el mercado, basado en la tasa Prime.a
Las APR introductorias con una duración variable pueden estar disponibles en algunas cuentas.
14.99% hasta 23.99%. Esta APR variará con el mercado, basado en la tasa Prime.a
Es posible que ocasionalmente estén disponibles en algunas cuentas ofertas promocionales con APR fijas y
duraciones variables.

APR para Transferencias 14.99% hasta 23.99%. Esta APR variará con el mercado, basado en la tasa Prime.a
de Saldo
Las APR introductorias con una duración variable pueden estar disponibles en algunas cuentas.
APR para Adelantos de
Efectivo

24.99%. Esta APR variará con el mercado, basado en la tasa Prime.b

APR de Penalización y
Cuándo se Aplica

Hasta 29.99%. Esta APR variará con el mercado, basado en la tasa Prime.c
Podemos aplicar la APR de Penalización a su cuenta si usted:
• no realiza un Pago mínimo a más tardar en la fecha y hora de vencimiento o
• si nos realiza un pago que se devuelve sin pagar.
¿Cuánto tiempo se aplicará la APR de Penalización?: Si aplicamos la APR de Penalización por cualquiera de
estos motivos, la APR de Penalización podría permanecer vigente indefinidamente.

Pago de Intereses

Su fecha de vencimiento será de un mínimo de 21 días después del cierre de cada ciclo de facturación. No le
cobraremos intereses en compras nuevas si paga el saldo total o el saldo de ahorro de intereses a más tardar
para la fecha de vencimiento cada mes. Vamos a comenzar a cobrar intereses en transferencias de saldo y
adelantos de efectivo en la fecha de la transacción.

Cargo Mínimo de Interés Ninguno
Consejos de la Consumer Para obtener más información acerca de los factores a considerar cuando solicite una tarjeta de crédito o su
Financial Protection
uso, visite el sitio Web de la Consumer Financial Protection Bureau en
Bureau
http://www.consumerfinance.gov/learnmore.

CARGOS
Cargo de Membresía
Anual
Cargo de My Chase
PlanSM
(cargo financiero fijo)
Cargo por Transacciones
Transferencias de Saldos
Adelantos de Efectivo
Transacciones en el
Extranjero
Cargos de Penalización
Pago Atrasado
Pago Devuelto
Cheque Devuelto

Ninguno hasta $550; cada usuario autorizado: ninguno hasta $75 por año.
Cargo mensual de 1.72% de la cantidad de cada transacción de compra elegible o cantidad seleccionada para
crear un My Chase Plan. El cargo de My Chase Plan será determinado en el momento en que se cree cada My
Chase Plan y seguirá siendo el mismo hasta que el saldo de My Chase Plan se pague en su totalidad.d
$5 o 5% de la cantidad de cada transferencia, lo que sea mayor.
$10 o 5% de la cantidad de cada transacción, lo que sea mayor.
Ninguno hasta 3% de la cantidad de cada transacción en dólares de EE. UU.

Hasta $40.
Hasta $40.
Ninguno

Nota: Es posible que esta cuenta no sea elegible para transferencias de saldo.
Cómo Calculamos su Saldo: usamos el método del saldo diario (incluyendo nuevas transacciones). Consulte la sección de Cargos por Intereses en este Contrato para más
detalles.
Derechos de Facturación: la información sobre sus derechos para disputar las transacciones y cómo ejercer esos derechos se incluye en este Contrato. Consulte la sección
de Sus Derechos de Facturación para obtener detalles completos.
Cargos de Penalización: una sola violación de cada tipo no excederá los $29. Sin embargo, si otra violación del mismo tipo se produce dentro de los seis períodos de facturación
mensuales siguientes, cobraremos el cargo máximo en la tabla anterior. Los cargos por Pago atrasado y por Pago devuelto no excederán el pago mínimo correspondiente que
se debe.
Pago Mínimo: Calcularemos el pago mínimo como: (1) cualquier cantidad atrasada; MÁS (2) cualquier obligación de pago especial en relación con Ofertas de Financiación
Flexible que requieren el pago del saldo durante una cantidad preseleccionada de períodos de facturación; MÁS (3) El mayor de: (a) $40 (o la cantidad total que usted adeuda
si es inferior a $40); o (b) la suma de: (i) el 1% del saldo nuevo (excluyendo cualquier saldo de Oferta de Financiación Flexible que requiera obligaciones de pago especiales
para garantizar el pago del saldo durante una cantidad preseleccionada de períodos de facturación), MÁS (ii) cualquier cargo periódico por intereses y cargo por pago atrasado
que le hayamos facturado a usted en el estado de cuenta para el que se calcula su pago mínimo.
Tasa Prime: las APR variables están basadas en el 3.25% tasa Prime a partir de 30 de junio de 2021.
a Agregamos de 11.74% hasta 20.74% a la tasa Prime para determinar la APR para Compras/My Chase Loan/Transferencias de Saldo (tasa periódica diaria actual de 0.04107%
hasta 0.06573%). APR máxima del 29.99% (tasa periódica diaria de 0.08217%).
b Agregamos 21.74% a la tasa Prime para determinar la APR para Adelantos de Efectivo (tasa periódica diaria actual de 0.06847%). APR máxima del 29.99% (tasa periódica
diaria de 0.08217%).
c Agregamos hasta 26.99% a la tasa Prime para determinar la APR de Penalización. APR máxima del 29.99% (tasa periódica diaria de 0.08217%).
COL00036

d Cargo

de My Chase Plan. El cargo de My Chase Plan se calcula en el momento en que se crea cada plan, y según la cantidad de cada transacción de compra o la cantidad
seleccionada para crear el plan, la cantidad de períodos de facturación que usted elija para pagar el saldo en su totalidad y otros factores. La cantidad en dólares mensual y
acumulada de su cargo de My Chase Plan se detallará durante la activación de cada My Chase Plan.

Aviso de la Ley de Préstamos para Militares: La ley federal ofrece protecciones importantes a los miembros de las Fuerzas Armadas y sus dependientes relacionadas con la
concesión de crédito al consumidor. En general, el costo del crédito al consumidor para un miembro de las Fuerzas Armadas y sus dependientes no puede exceder una tasa
efectiva anual del 36 por ciento. Esta tasa debe incluir, según corresponda a la cuenta o transacción de crédito, lo siguiente: los costos relacionados con las primas del seguro
de crédito; los cargos por productos auxiliares que se venden en relación con la transacción de crédito; cualquier cargo por solicitud que se cobre (que no sean determinados
cargos por solicitud de cuentas o transacciones de crédito específicas); y cualquier cargo por participación que se cobre (que no sean determinados cargos de participación
de una cuenta de tarjeta de crédito). Para recibir esta información y una descripción verbal de su obligación de pago, por favor, llame al 1-800-235-9978.

COL00036

1

BIENVENIDO A
SU CONTRATO DE TARJETA DE CRÉDITO

BIENVENIDO A SU CUENTA.

1

Tome un momento para revisar y guardar esta información importante acerca de su cuenta. Este documento, junto con la Tabla de tasas y cargos, constituye un contrato entre usted (titular de la tarjeta) y
JPMorgan Chase Bank, N.A., una subsidiaria de JPMorgan Chase & Co. Si tiene alguna pregunta, llámenos al número que se encuentra en la parte posterior de su tarjeta. Hemos aceptado prestarle dinero según
se describe en este contrato, y usted acepta pagarnos de vuelta con los cargos y costos por intereses. Si usted usa esta cuenta o realiza cualquier pago a esta cuenta, está indicando que acepta los términos de
este contrato. Tenga en cuenta: Si cualquier cargo en la Tabla de tasas y cargos está marcado como “ninguno”, no se aplicará la sección de este contrato que se relacione con ese cargo.

PRIMEROS PASOS: SU CUENTA Familiarícese con su cuenta mediante la revisión de los términos importantes a continuación.
TÉRMINO
IMPORTANTE

LO QUE SIGNIFICA PARA USTED

NUESTRA RESPONSABILIDAD

Línea de acceso
de crédito

Usted es responsable de los saldos de su cuenta, incluidas las cantidades cargadas en exceso
de su línea de acceso de crédito. También podemos referirnos a la línea de acceso de crédito,
como línea de crédito o límite de crédito.

Nosotros asignaremos una línea de acceso de crédito a su cuenta y la registraremos
en su estado de cuenta de facturación mensual. Podremos cancelar, cambiar o
restringir su disponibilidad de crédito en cualquier momento. Cada transacción
se considera para su aprobación en forma individual, inclusive aquéllas que se
encuentren por encima de la línea de acceso de crédito. Podremos no aprobar todas
las transacciones.

Usuarios
autorizados

Usted es responsable de cualquier uso de su cuenta por un usuario autorizado o por cualquiera
a quien usted permita usar su cuenta. Debe notificarnos si desea que ellos dejen de utilizar su
cuenta. Usted también es responsable de obtener cualquier tarjeta, cheques u otros medios
de acceso a su cuenta del usuario autorizado.

Si usted lo solicita, podemos emitir tarjetas que accedan a su cuenta para sus
usuarios autorizados. Si desea cancelar a un usuario autorizado, podemos cerrar su
cuenta y abrir una cuenta nueva con un número de cuenta distinto.

Cargo de
membresía anual

Si su cuenta tiene un cargo anual, usted es responsable de ese cargo cada año en el que su cuenta
esté abierta o hasta que su cuenta se cierre y se pague en su totalidad. Su estado de cuenta de
facturación mensual le informará cómo cancelar su cuenta y evitar futuros cargos anuales.

Si su cuenta tiene un cargo anual, agregaremos su cargo anual a su estado de
cuenta de facturación mensual una vez al año, independientemente de que use o
no su cuenta. Su cargo anual será añadido a su saldo de compra y puede incurrir
en intereses.

Enmiendas

Podremos cambiar de vez en cuando los términos de este contrato, inclusive las tasas
efectivas anuales (APR por sus siglas en inglés) y los cargos. También podremos agregar
o eliminar términos. Las APR u otros términos también pueden cambiar sin realizar una
enmienda, por ejemplo cuando cambia la tasa Prime o la APR de penalización es aplicable.
Consulte las secciones APR de Tasa variable y APR de penalización para más información.

Nuestra capacidad para efectuar cambios en este contrato se encuentra limitada
por la ley aplicable. Podemos comunicarle las enmiendas a este acuerdo por
correo postal, correo electrónico u otros medios electrónicos, o incluirlas en sus
estados de cuenta de facturación mensuales, según lo permita la ley.

DEFINICIONES IMPORTANTES
TÉRMINO

LO QUE SIGNIFICA

Transacciones tipo
efectivo

Las transacciones equivalentes a efectivo serán consideradas adelantos de efectivo. Las transacciones equivalentes a efectivo incluyen, entre otras, las siguientes transacciones
en la medida en que sean aceptadas:
• Compras de cheques de viajero, moneda extranjera, giros postales, giros bancarios, criptomonedas, otras divisas digitales o virtuales similares y otras transacciones similares;
• Compras de boletos de lotería, fichas de juegos de casino, apuestas de carreras o transacciones de apuestas con y sin conexión a internet similares;
• Transferencias de dinero de persona a persona y transacciones de financiamiento de cuentas que transfieren divisas, y
• Realización de un pago utilizando un servicio de terceros, incluyendo las transacciones de pago de facturas que no se realizan directamente con el comerciante o su
proveedor de servicios.

Fecha de
vencimiento del pago

Los pagos vencen en la fecha de vencimiento del pago que aparece en su estado de cuenta mensual. El estado de cuenta mensual también explica el momento en el que debemos
recibir el pago para que se considere recibido a la fecha. Los pagos recibidos después de la fecha requerida se acreditarán el próximo día hábil.

Tasa variable

Nosotros calculamos la APR variable agregando un margen a la tasa Prime más alta en los Estados Unidos publicada en la sección “Money Rates” del periódico “The Wall Street Journal”
dos días hábiles (no en fines de semana o feriados nacionales) antes de la fecha de cierre que aparece en su estado de cuenta de facturación. La APR puede aumentar o disminuir
cada mes si cambia la tasa Prime. Se aplicará cualquier tasa nueva a partir del primer día de su ciclo de facturación durante el cual cambió la tasa Prime. Si aumenta la APR, usted
pagará un mayor cargo por intereses y podrá pagar un mayor pago mínimo. La tasa Prime es simplemente un índice de referencia y no es la tasa de interés más baja disponible.
Si el periódico “The Wall Street Journal” deja de publicar la tasa Prime, seleccionaremos una tasa de referencia similar.

Incumplimiento

Su cuenta estará en situación de incumplimiento si:
1) Usted no paga al menos el pago mínimo al vencimiento; 2) Usted no cumple con éste u otros contratos con nosotros o con uno de nuestros bancos relacionados; o 3) Creemos
que existe la posibilidad de que usted no esté dispuesto o no pueda pagar sus deudas a tiempo; usted presenta una solicitud de quiebra; o usted quede incapacitado o muera.
Si su cuenta está en situación de incumplimiento, podemos cerrarla sin aviso y requerirle que pague inmediatamente su saldo pendiente. También podemos comenzar actividades
de cobro. En la medida de lo permitido por la ley, si usted está en situación de incumplimiento por no habernos pagado, tendrá que pagar nuestros gastos de cobro, los honorarios
de abogados, las costas de tribunales y todos los demás gastos de la exigibilidad de nuestros derechos según este contrato.

Saldo de ahorro de
intereses

Cuando usted aprovecha ofertas de financiación flexible, no le cobraremos intereses por las compras nuevas si paga el saldo total de ahorro de intereses a más tardar para la
fecha de vencimiento de cada mes.
Si su saldo de ahorro de intereses de cualquier ciclo de facturación es menor que su pago mínimo adeudado, el monto de su saldo de ahorro de intereses reflejará su pago mínimo
adeudado para evitar un cargo por pago atrasado.

Ofertas de
financiación flexible

Cuando usted aprovecha ofertas de financiación flexible, como las disponibles con My Chase Loan SM y My Chase Plan SM, puede pagar dichos saldos con el transcurso del tiempo
según los términos de su oferta y aún así evitar cargos por intereses adicionales en compras nuevas.

USO DE SU TARJETA
Puede utilizar su cuenta de las siguientes maneras. Su cuenta se utilizará sólo para fines personales, familiares o del hogar.
No puede utilizar su cuenta con fines ilegales, tales como escribir cheques contra fondos no cobrados. Usted acepta que podemos confiar
en la información que nos proporcionan los comerciantes y la red de pago correspondiente para clasificar las transacciones como
Compras, Transferencias de saldo o Adelantos de efectivo.

TRANSACCIONES

LO QUE SIGNIFICA PARA USTED

NUESTRA RESPONSABILIDAD

Puede utilizar su cuenta para comprar productos y servicios.

Autorizamos cargos a su cuenta de acuerdo con los términos
de este contrato.

Transferencias de
saldos

Si es elegible para una transferencia de saldo, usted puede transferir saldos a su cuenta utilizando cheques de
transferencia de saldo, visitando nuestro sitio Web o llamándonos.

Permitimos transferencias de saldos desde la mayoría
de las cuentas que no sean de Chase. No permitimos
transferencias de saldos desde otras cuentas o préstamos
con nosotros o cualquiera de nuestros bancos relacionados.

Adelantos de efectivo

Puede obtener efectivo de cajeros automáticos, en bancos o mediante el uso de cheques de adelanto de efectivo. A
menos que indiquemos lo contrario, los cheques de transferencia de saldo o los cheques promocionales pagaderos
en efectivo o en su nombre se considerarán como adelantos de efectivo.

Consideramos ciertas otras transacciones como adelantos
de efectivo. Consulte la sección Transacciones tipo efectivo
bajo Definiciones importantes arriba.

Cheques

Para su protección, los cheques de transferencia de saldo y de adelanto de efectivo deben estar firmados por la
persona cuyo nombre aparece impreso en los cheques.

Podemos proporcionarle cheques de transferencia de saldo
y de adelanto de efectivo para su uso; tenemos derecho a no
pagar un cheque por cualquier razón.

Compras

3

Puede crear transacciones programadas y repetidas en su cuenta. Si su cuenta se cierra o se suspende, o si
su número de cuenta cambia, necesitará comunicarse con cualquier persona a la que esté pagando mediante
transacciones automáticas.

No somos responsables de transacciones programadas
y repetidas si su cuenta se cierra, se suspende, o si su
número de cuenta cambia.

Usted puede recibir ofertas especiales relacionadas con su cuenta.

Cualquier oferta especial está sujeta a este contrato, a
menos que se indique lo contrario.

Cargo por transacción
en el extranjero y tasa
de cambio

Existe un cargo, a menos que esté registrada la palabra “Ninguno” en la Tabla de tasas y cargos, para las
transacciones que se han realizado en otra moneda que no sean dólares estadounidenses. Nuestro cargo es un
porcentaje de la cantidad de la transacción en dólares estadounidenses. Por favor consulte la Tabla de tasas y
cargos para ver la cantidad de este cargo, de existir alguno.

• Si una transacción se efectúa en moneda extranjera,
Visa International o Mastercard International convertirá
la transacción a dólares estadounidenses utilizando sus
propios procedimientos de conversión de moneda, y
luego nos enviará la cantidad de la transacción. La tasa
de cambio se determinará mediante el uso del rango de
tasas disponibles en los mercados de divisas mayoristas
para la fecha de procesamiento (que puede diferir de
la tasa que recibe la asociación de tarjeta) o una tasa
gubernamental obligatoria vigente en esa fecha. La tasa
de cambio utilizada por Visa o Mastercard puede diferir
de la tasa de cambio en la fecha de su transacción.
• En caso de mercancía que ha sido devuelta o cambiada
que se compró con una moneda extranjera, la tasa de
cambio se determina en la fecha de la devolución.

Autorización de
transacciones y Cierre
de su cuenta

No estamos obligados a pagar toda transacción y podemos cerrar o suspender su cuenta. En algunas ocasiones,
cerramos cuentas no en base a sus acciones o inacciones, sino en base a nuestras necesidades comerciales.

Podremos rechazar transacciones por cualquier razón,
inclusive: asuntos operativos, la cuenta se encuentra
en situación de incumplimiento, o supuesta actividad
fraudulenta o ilícita. No somos responsables por cualquier
pérdida asociada con una transacción rechazada.

Cargos automáticos

Promociones

5

My Chase Loan SM

En caso de ser elegible, usted podrá utilizar la función My Chase Loan para obtener efectivo en la forma de un
depósito electrónico en una cuenta bancaria elegible en una institución financiera ubicada en los Estados Unidos al
aceptar una oferta de My Chase Loan. Cada oferta incluirá una APR de My Chase Loan y la cantidad de períodos
de facturación necesarios para pagar el saldo de My Chase Loan en su totalidad al efectuar pagos regulares en
cada período de facturación mensual.
Su capacidad para generar un saldo de My Chase Loan depende de una variedad de factores, como su capacidad
crediticia, su límite de crédito y su comportamiento anterior en la cuenta. No podrá generar un saldo de My Chase Loan
si se inscribe en un programa de administración de deuda, o si su cuenta se cierra o cae en incumplimiento.
Las transacciones de My Chase Loan no son adelantos de efectivo ni transferencias de saldo. My Chase Loan
otorga ofertas de financiación flexible. Por lo tanto, cuando usted tiene un saldo de My Chase Loan en su cuenta,
no le cobraremos intereses por las compras nuevas si paga su saldo total de ahorro de intereses a más tardar para
la fecha de vencimiento de cada mes.

A nuestra entera discreción, podemos poner My Chase Loan a
su disposición; también podemos rechazar una transacción
de My Chase Loan por cualquier motivo.

My Chase Plan SM

En caso de ser elegible, usted podrá utilizar la función My Chase Plan a través de chase.com o la aplicación Chase
Mobile para generar, a través de transacciones de compra elegibles recientes o cantidades elegibles, un saldo de
My Chase Plan con términos de pago fijos, sujeto al cargo de My Chase Plan. De las ofertas disponibles, usted
selecciona la cantidad de períodos de facturación que le tomará pagar el saldo de My Chase Plan en su totalidad
realizando pagos regulares en cada período de facturación mensual. En cada período de facturación durante el
cual haya un saldo en My Chase Plan, se le cobrará el cargo de My Chase Plan, en lugar de los intereses según la
APR para compras.
Una transacción de compras elegible de My Chase Plan es una compra de al menos una cantidad específica de
dólares, pero es posible que no se incluyan ciertas transacciones de compra, como transacciones equivalentes
a efectivo y cualquier cargo que se nos adeude, incluidos cargos anuales de membresía. Una cantidad elegible
para My Chase Plan es una parte del saldo de su cuenta, según se especifica ocasionalmente en la experiencia
de My Chase Plan. Las transacciones de adelanto de efectivo, transferencia de saldo y My Chase Loan no son
elegibles para My Chase Plan.

A nuestra entera discreción, podemos poner My Chase Plan a
su disposición; también podemos rechazar una transacción
de My Chase Plan por cualquier motivo.

Su capacidad para generar un saldo de My Chase Plan depende de una variedad de factores, como su capacidad
crediticia, su límite de crédito y su comportamiento en la cuenta. No podrá generar un saldo de My Chase Plan si se
inscribe en un programa de administración de deuda, o si su cuenta se cierra o cae en incumplimiento.
Cuando usted tiene un saldo de My Chase Plan en su cuenta, no le cobraremos intereses por las compras nuevas
si paga su saldo total de ahorro de intereses a más tardar para la fecha de vencimiento de cada mes.

PAGÁNDONOS DE VUELTA
Usted recibirá un estado de cuenta de facturación cada mes, si requiere uno. En éste aparecerá su pago mínimo requerido.
Luego de efectuar un pago, puede llevar hasta 15 días reintegrar el crédito disponible a su cuenta.

INFORMACIÓN
IMPORTANTE

LO QUE SIGNIFICA PARA USTED

NUESTRA RESPONSABILIDAD

Instrucciones de
pago

Debe cumplir con las instrucciones de pago en su estado de cuenta de facturación.
Puede pagarnos mediante: cheque, giro postal, o pago electrónico girado a un banco de
los Estados Unidos o a una sucursal de banco extranjero en los Estados Unidos. Todos
los pagos se deben realizar en dólares estadounidenses. Usted nos autoriza a cobrar
cualquier pago de cheque, ya sea electrónicamente o mediante giro. Los pagos marcados
como “paid in full” (pagados en su totalidad) se deben enviar a la dirección de Pagos
condicionales que se indica en su estado de cuenta de facturación. Consulte su estado de
cuenta de facturación para ver las instrucciones de pago completas.

Siempre y cuando usted efectúe su pago de acuerdo con las instrucciones en su estado
de cuenta de facturación a más tardar para la fecha y hora en que vencen los pagos,
acreditaremos su pago a partir del mismo día en que se recibe. Podremos aceptar y procesar
cualquier pago marcado como “paid in full” sin perder nuestros derechos.

Pago mínimo

Usted acepta pagar al menos el pago mínimo al vencimiento. Usted también acepta pagar
cantidades por encima de su línea de acceso de crédito cuando se facturen a sus estados
de cuenta mensuales o más temprano en el caso que lo solicitemos. Los pagos mínimos
pueden incluir pagos fijos específicos que son parte de promociones especiales. Usted
puede pagar los saldos más rápido pagando más que el pago mínimo o el saldo total no
pagado en su cuenta.

Calcularemos su pago mínimo en base al método descrito debajo en la Tabla de tasas y
cargos. El pago mínimo aparecerá en su estado de cuenta mensual e incluye cualquier
cantidad atrasada.
6

7

Período sin
intereses
(también
conocido
como
período de
gracia) en
compras

• Cuando su cuenta está en un período sin intereses, no se cobran intereses por compras nuevas.
• Su cuenta se encuentra en un período sin intereses cuando usted ha pagado el Nuevo saldo o el Saldo de ahorro de intereses
que se muestra en su estado de cuenta de facturación más reciente a más tardar para la fecha y hora de vencimiento.
• Si no paga el Nuevo saldo o el Saldo de ahorro de intereses que se muestra en su estado de cuenta de facturación más
reciente a más tardar para la fecha y hora de vencimiento, perderá su período sin intereses y le cobraremos intereses por
sus compras.
• Puede recuperar el beneficio del período sin intereses pagando su Nuevo saldo o Saldo de ahorro de intereses a más tardar
para la fecha y hora de vencimiento.
• Después de que ingrese nuevamente un período sin intereses, los cargos por intereses sobre las compras aún pueden
aparecer en su próximo estado de cuenta de facturación. Esto refleja los intereses cobrados desde el comienzo de ese ciclo
de facturación hasta la fecha en que se recibió su pago por el estado de cuenta de facturación anterior.
• Las transferencias de saldos, cheques y adelantos de efectivo no tienen un período sin intereses, y si estos saldos no
se pagan en su totalidad al pagar su Nuevo saldo o Saldo de ahorro de intereses a más tardar para la fecha y hora de
vencimiento, perderá su período sin intereses en las nuevas compras.

• Cuando su cuenta esté en un período sin intereses, no le
cobraremos intereses por nuevas compras.
• Cuando su cuenta no esté en un período sin intereses, le
cobraremos intereses sobre sus compras desde la fecha
en que las compras aparezcan en su cuenta hasta que su
Nuevo saldo o Saldo de ahorro de intereses se pague por
completo.
•
Para obtener más información sobre la forma en que
calculamos sus cargos por intereses, revise la sección de
Cargos por intereses de este contrato.

Asignación
de pagos

• Cuando usted realiza un pago, generalmente primero aplicamos su pago mínimo a la obligación mensual para cualquier
saldo de Oferta de Financiamiento Flexible con obligaciones de pago especiales que requieren el pago del saldo durante una
cantidad preseleccionada de períodos de facturación y luego al saldo de su estado de cuenta mensual con la APR más baja.
• Cualquier pago por encima de su pago mínimo se aplicaría por lo general al saldo de su estado de cuenta mensual con la
APR más alta primero.
• Si usted no paga la totalidad de su nuevo saldo o saldo de ahorro de intereses, como aparece en su estado de cuenta, cada
mes, es posible que no pueda evitar los cargos por intereses por las compras nuevas.

Nosotros aplicamos los pagos a los saldos como aparecen
en su estado de cuenta mensual antes de aplicarlos a las
transacciones nuevas. Un ejemplo de una transacción nueva
es una compra reciente que usted haya realizado y que aún
no se haya incluido en el saldo nuevo como se muestra en su
estado de cuenta.

Puede solicitar un reembolso de cualquier saldo de crédito a su favor.

Si no solicita un reembolso, aplicaremos cualquier saldo de
crédito a los nuevos cargos en su Cuenta. Si el saldo de crédito
permanece en su cuenta por 6 meses y la cantidad es de $1 o
más, se la reembolsaremos automáticamente. Si su saldo de
crédito es inferior a $1, éste será eliminado de su cuenta, pero
le enviaremos un crédito en el saldo si usted nos lo solicita.

Saldos de
crédito

“CÓMO EVITAR…”
Ciertas transacciones y situaciones pueden hacer que su cuenta reciba un cargo o tenga otro impacto en su cuenta. La información de abajo explica cómo puede evitar estas consecuencias. Las cantidades
de estos cargos se enumeran en la Tabla de tasas y cargos. La Tabla de tasas y cargos indica las cantidades “hasta” ciertos límites para cargos de penalización debido a que la ley aplicable puede restringir
nuestra capacidad para imponer la cantidad total del cargo de penalización en algunas circunstancias. Consulte la disposición debajo de la Tabla de tasas y cargos sobre “Cargos de penalización” para
obtener más detalles que reflejen limitaciones impuestas de acuerdo con la ley aplicable. Los servicios especiales que usted requiera pueden incurrir en cargos de servicios adicionales; asegúrese de revisar
cuidadosamente los detalles de cualquier servicio adicional para comprender los términos.

“CÓMO EVITAR…” QUÉ HACER

LO QUE SIGNIFICA

Cargo por pago
atrasado

Asegúrese que Chase reciba al menos el
Si algún pago se atrasa, podemos cobrarle un cargo por pago atrasado. Si el cargo se basa en un saldo, calculamos el cargo utilizando
pago mínimo que aparece en su estado
el saldo total al final del día en el que se cobra el cargo.
de cuenta de facturación al vencimiento.

Cargo por cheque
devuelto

No suspenda los pagos de cheques de Podremos cobrar un cargo por cheque devuelto si: suspendemos pagos sobre un cheque de adelanto de efectivo o cheque de transferencia
adelanto de efectivo y de transferencia de saldo a su pedido, o denegamos el pago de un cheque de adelanto de efectivo o cheque de transferencia de saldo por cualquier razón,
de saldo, y no incurra en incumplimiento. inclusive si su cuenta se encuentra en situación de incumplimiento.

Cargo por pago
devuelto

APR de penalización

No presente un pago que podría
Podremos cobrarle este cargo si el pago que nos ofrece no se realiza, se devuelve sin pagar o no se puede procesar.
devolverse sin pagar.
Podemos aplicar la APR de penalización, que es más alta que la APR que de otro modo pagaría, por cualquiera de estos motivos.
No
• Dejar de realizar un Pago mínimo a
• APR de penalización en transacciones nuevas: si no realiza un Pago mínimo a más tardar para la fecha y hora de vencimiento,
más tardar para la fecha y hora de
pero realiza el pago en un plazo de 60 días a partir de esa fecha de vencimiento, podemos aplicar la APR de penalización. También
vencimiento; o
podemos aplicar la APR de penalización si nos realiza un pago que se devuelve sin pagar. En cualquier caso, la APR de penalización
• Nos realice un pago que se devuelva
se aplicará a las transacciones nuevas. Después de que apliquemos la APR de penalización, revisaremos su cuenta ocasionalmente
sin pagar.
para ver si una reducción en la APR es apropiada.
8

• APR de penalización sobre saldos pendientes y transacciones nuevas: si no recibimos el Pago mínimo en un plazo de 609
días desde la fecha y hora de vencimiento, entonces también podemos aplicar la APR de penalización. Si la aplicamos en este
caso, la APR de penalización se aplicará a todos los saldos existentes en su cuenta y a las transacciones nuevas. Si realiza seis
pagos mínimos consecutivos cuando vencen, y comienza con su primer pago adeudado después de que apliquemos la APR de
penalización, entonces la APR de penalización ya no se aplicará. Si no realiza seis pagos mínimos consecutivos cuando vencen, y
comienza con su primer pago adeudado después de que apliquemos la APR de penalización, entonces la APR de penalización podría
permanecer vigente indefinidamente. Después de que apliquemos la APR de penalización, revisaremos su cuenta ocasionalmente
para ver si una reducción en la APR es apropiada.
Cobros

No incurra en incumplimiento.

Si se encuentra en situación de incumplimiento, podremos realizar las acciones que se describen anteriormente en la sección de
Incumplimiento debajo de Definiciones Importantes en la parte posterior.

“¿QUÉ SUCEDE SI…”
Revise esta sección para situaciones o preguntas comunes que podrían requerir una acción de su parte o de parte de Chase.

“¿QUÉ SUCEDE SI…”

ACCIÓN

LO QUE SIGNIFICA

… creo que encontré un error
en mi estado de cuenta?

Investigaremos

Escríbanos dentro de los 60 días después de la aparición del supuesto error en su estado de cuenta de facturación. Investigaremos
y le comunicaremos nuestros hallazgos. Consulte la sección Sus derechos de facturación que se encuentra debajo para obtener
más detalles.

… estoy disconforme con una
compra con tarjeta de crédito?

Investigaremos el problema

Primero, intente resolver el problema con el comerciante. Luego escríbanos sobre la compra. Investigaremos el problema y le
comunicaremos nuestros hallazgos. Consulte la sección Sus derechos de facturación que se encuentra debajo para obtener
más detalles.

… perdí o robaron mi tarjeta?

Comuníquese con nosotros
inmediatamente y deje de utilizar
su cuenta

Si perdió o le robaron su tarjeta, o si cree que alguien utilizó su cuenta sin permiso, háganoslo saber inmediatamente llamando
al número de Atención para Titulares de Tarjeta en su tarjeta o estado de cuenta de facturación. Necesitamos su ayuda para
averiguar qué sucedió y corregir el problema.

... se cerró o se suspendió mi
cuenta?

Usted continúa siendo responsable
de su saldo

Inclusive en el caso de que su cuenta se cierre o suspenda, debe pagar todas las cantidades que nos debe de acuerdo con
la cuenta.

... quiero transferir un saldo o
efectuar un adelanto de efectivo?

Se aplican cargos por transferencia
de saldo o por transferencia de
adelanto de efectivo

Incurrirá en un cargo por transacción por estas transacciones. Consulte la Tabla de tasas y cargos para ver la cantidad de
este cargo.

SOBRE NUESTRA RELACIÓN

Mantener una relación positiva con usted es muy importante para nosotros. Revise estos términos para comprender más en su cuenta.

INFORMACIÓN IMPORTANTE

Comunicaciones

Supervisión telefónica

LO QUE SIGNIFICA
Podemos enviarle tarjetas, estados de cuenta y otras comunicaciones a cualquier domicilio postal o de correo electrónico que figure en nuestros registros. Si más de una
persona es responsable por esta cuenta, podemos proveer estados de cuenta de facturación y comunicaciones a uno de ustedes. Cuando usted nos da su número de
teléfono celular, tenemos su permiso para comunicarnos con usted a ese número con respecto a todas sus cuentas de Chase o J.P. Morgan. Su consentimiento nos permite
utilizar la mensajería de texto, mensajes de voz artificial o pregrabados y la tecnología de marcación automática para las llamadas de servicio de información y de la cuenta,
pero no para las llamadas de venta o telemercadeo. Puede incluir la comunicación por parte de las compañías que prestan servicio a sus cuentas en nombre nuestro.
Podrían aplicarse cargos por datos y mensajes de texto. Puede comunicarse con nosotros en cualquier momento para cambiar estas preferencias. También podremos enviar
un mensaje de correo electrónico a cualquier dirección a la que tengamos motivos para creer que podamos comunicarnos con usted. Algunos de los fines legales de las
llamadas y mensajes incluyen: posible fraude o robo de identidad, obtención de información; transacciones o prestación de servicios en su cuenta; cobranza en su cuenta;
y suministro de información sobre productos y servicios. Avísenos inmediatamente sobre cualquier cambio en su información de contacto a través del domicilio de Servicios
de Atención para Titulares de Tarjeta o al número de teléfono que aparece en su estado de cuenta de facturación.
Podremos escuchar y grabar sus conversaciones telefónicas con nosotros y podremos usar su voz para verificación.

10

Información de crédito

Podremos obtener y revisar su historial crediticio de agencias de informes de crédito y otras instituciones. Es posible que, ocasionalmente, obtengamos de terceros datos11
sobre empleo e ingresos para ayudarnos a continuar con la administración de su cuenta. También podemos proporcionar información sobre usted y su cuenta a agencias
de informes de crédito y a otras instituciones. También podremos proporcionar información a agencias de informes de crédito sobre esta cuenta en nombre de un usuario
autorizado. Si cree que proporcionamos información incorrecta, escríbanos e investigaremos.

Aplicación

Podremos exigir el cumplimiento de los términos de este contrato en cualquier momento. Podremos retrasar su aplicación sin perder nuestro derecho a exigir el cumplimiento
de este contrato en una oportunidad posterior. En el caso que algunos términos de este contrato se consideren no exigibles, aún podemos exigir los otros términos.

Ley que rige

Este contrato y su cuenta se regirán por la ley federal, así como por la ley de Delaware, y se aplicarán independientemente del lugar donde usted resida o
utilice esta cuenta.

Cesión

Podremos ceder su cuenta, los saldos que usted nos adeude, o cualquiera de nuestros derechos y obligaciones de conformidad con el presente contrato. En ese caso, el
tercero tiene derecho a cualquiera de nuestros derechos que le cedemos.

Residentes de NJ

Todas las disposiciones de este contrato son válidas, exigibles y aplicables en Nueva Jersey.

Aviso de la Ley de Préstamos
para el Personal Militar

La ley federal ofrece protecciones importantes a los miembros de las Fuerzas Armadas y sus dependientes relacionadas con la concesión de crédito al consumidor. En
general, el costo del crédito al consumidor para un miembro de las Fuerzas Armadas y sus dependientes no puede exceder una tasa efectiva anual del 36 por ciento.
Esta tasa debe incluir, según corresponda a la cuenta o transacción de crédito, lo siguiente: los costos relacionados con las primas del seguro de crédito; los cargos por
productos auxiliares que se venden en relación con la transacción de crédito; cualquier cargo por solicitud que se cobre (que no sean determinados cargos por solicitud de
cuentas o transacciones de crédito específicas); y cualquier cargo por participación que se cobre (que no sean determinados cargos de participación de una cuenta de tarjeta
de crédito). Si usted está cubierto por la Ley de Préstamos para el Personal Militar, (i) entonces no está sujeto al Acuerdo de Arbitraje a continuación y (ii) sin perjuicio de
cualquier disposición en contrario en este Contrato, en la medida en que lo requiera la Ley de Préstamos para el Personal Militar, ninguna disposición del presente contrato
se considerará una renuncia al derecho de recurso legal conforme a cualquier disposición de otro modo aplicable de la ley federal o estatal. Para recibir esta información y
una descripción verbal de su obligación de pago, o si tiene alguna pregunta, por favor, llame al 1-800-235-9978.

Arbitraje vinculante

A menos que rechace oportunamente el acuerdo de arbitraje, es posible que las disputas con nosotros se resuelvan mediante arbitraje vinculante. Con el arbitraje, usted no
puede acudir al tribunal, tener un juicio por jurado ni iniciar o participar en un pleito de acción de clase (Class Action) por sus disputas con nosotros. En el arbitraje, un árbitro
resuelve las disputas, no un juez ni un jurado, y los procedimientos son más simples y más limitados que las reglas que se aplican en un tribunal.
Por favor, consulte la sección Acuerdo de arbitraje para más detalles, incluyendo instrucciones para rechazar el acuerdo de arbitraje.

CARGOS POR INTERESES
Se podrán encontrar en la Tabla de tasas y cargos, las tasas de interés diarias y las tasas efectivas anuales.
Cálculo del cargo periódico por intereses — Método de saldo diario (incluyendo nuevas transacciones):
Calculamos un saldo diario para cada tipo de transacción y utilizamos los saldos diarios para determinar sus cargos por intereses.
Calculamos el “saldo diario” para cada tipo de transacción de la siguiente manera:
• Tomamos el saldo inicial para cada día y agregamos
- cualquier cargo por intereses desde el día anterior (conocido como interés compuesto) y
- cualquier transacción nueva u otros débitos (estos incluyen: cargos de membresía anual, cargos por transacciones, cargos de penalización, cualquier otro cargo y cargos por intereses no pagados).
• Le restamos pagos o créditos, y tratamos cualquier saldo de crédito neto como un saldo cero.
• El resultado es el saldo diario para cada tipo de transacción.
Calculamos los cargos por intereses en su cuenta de la siguiente manera:
• Para obtener la tasa de interés diaria para cada tipo de transacción dividimos la APR por 365. Podremos combinar distintos tipos de transacciones que tienen las mismas tasas de interés diarias.
• Multiplicamos la tasa de interés diaria por el saldo diario para cada tipo de transacción por cada día del ciclo de facturación.
• Sumamos los cargos por intereses para cada día en el ciclo de facturación por cada tipo de transacción.
• Si se adeuda algún cargo por intereses, le cobraremos al menos el cargo mínimo de interés que se muestra en la Tabla de tasas y cargos.
Agregamos las transacciones y los cargos a su saldo diario no antes de:
• La fecha de la transacción, en el caso de las compras nuevas, transferencias de saldo, adelantos de efectivo o My Chase Loans.
• La fecha en la que el beneficiario deposita el cheque, para nuevos cheques de adelanto de efectivo o de transferencia de saldo.
• La fecha de una transacción vinculada, la fecha en que se registraron en su cuenta o el último día del ciclo de facturación, según lo decidamos, en el caso de los cargos.
Los saldos sujetos a la tasa de interés para cada tipo de transacción que se muestran en su estado de cuenta de facturación son la suma de los saldos diarios para ese tipo de transacción dividida por la
cantidad de días en el ciclo de facturación. Podremos utilizar fórmulas matemáticas que producen resultados equivalentes para calcular el saldo sujeto a la tasa de interés, los cargos por intereses y las
cantidades relacionadas.

12

SUS DERECHOS DE FACTURACIÓN: CONSERVE ESTE DOCUMENTO PARA SU USO FUTURO

13

Este aviso le informa sobre sus derechos y nuestras responsabilidades de acuerdo con la “Ley de facturación justa de crédito” (Fair Credit Billing Act).
Qué hacer si encuentra un error en su estado de cuenta
Si cree que hay un error en su estado de cuenta, contáctenos por escrito al domicilio de Atención al Cliente que se indica en su estado de cuenta de facturación. En su comunicación, proporciónenos
la siguiente información:
• Información de cuenta: su nombre y número de cuenta.
• Cantidad en dólares: la cantidad en dólares del presunto error.
• Descripción del problema: si cree que hay un error en su factura, describa lo que cree que está mal y porqué cree que es un error.
Debe comunicarse con nosotros:
• Dentro de 60 días posteriores a la aparición del error en su estado de cuenta.
• Al menos 3 días hábiles antes de que se programe un pago automático, si quiere suspender un pago sobre la cantidad que cree que está mal.
Debe avisarnos sobre cualquier error potencial por escrito. Podrá llamarnos o avisarnos electrónicamente, pero si lo hace no estamos obligados a investigar cualquier error potencial y usted tal vez tenga que
pagar la cantidad en cuestión.
Qué pasará luego de que recibamos su comunicación escrita
Cuando recibimos su comunicación, debemos hacer dos cosas:
1. Dentro de los 30 días de recibir su comunicación, debemos informarle que la recibimos. También le informaremos si ya hemos corregido el error.
2. Dentro de los 90 días de recibir su comunicación, debemos corregir el error o explicarle porqué creemos que la factura es correcta.
Mientras tanto nosotros investigamos si ha existido o no un error:
• No podemos intentar cobrar la cantidad en cuestión, o reportarle como atrasado en esa cantidad.
• El cargo en cuestión podrá permanecer en su estado de cuenta, y nosotros podemos continuar cobrándole interés sobre esa cantidad.

• Si bien usted no tiene que pagar la cantidad en cuestión, es responsable del resto de su saldo.
• Podemos aplicar cualquier cantidad sin pagar contra su línea de acceso de crédito.
Luego de finalizar nuestra investigación, puede pasar una de dos cosas:
• Si cometimos un error: Usted no tendrá que pagar la cantidad en cuestión o cualquier interés u otros cargos relacionados con esa cantidad.
•	
Si no creemos que hubo un error: Tendrá que pagar la cantidad en cuestión, junto con los intereses y cargos aplicables. Le enviaremos un estado de cuenta con la cantidad que usted adeuda y la fecha de
vencimiento. Podremos luego reportarle que usted está atrasado si no paga la cantidad que creemos que usted nos adeuda.
Si usted recibe nuestra explicación pero aún cree que su factura es errónea, debe comunicarse con nosotros por escrito dentro de 10 días informándonos que usted aún se niega a pagar. Si lo hace, no podemos
reportarle como atrasado sin reportar también que usted está cuestionando su factura. Debemos decirle a usted el nombre de cualquiera a quien le hayamos reportado que usted estaba atrasado, y debemos
permitir que esas organizaciones sepan cuando se resolvió el asunto entre nosotros.
Si no cumplimos con todas las normas anteriores, usted no tiene que pagar los primeros $50 de la cantidad en cuestión incluso si su factura es correcta.
Sus derechos en el caso de estar disconforme con las compras de su tarjeta de crédito
Si usted está disconforme con los bienes y servicios que adquirió con su tarjeta de crédito, e intentó de buena fe corregir el problema con el comerciante, puede tener derecho a no pagar la cantidad restante
adeudada de la compra. Para hacer uso de este derecho, todo lo que se indica a continuación debe ser verdadero:
1.	La compra tiene que haberse efectuado en el estado en el que reside o dentro de las 100 millas de su domicilio de correo actual, y el precio de la compra debe haber sido superior a $50. (Nota: ninguna
disposición anterior es necesaria si su compra se basó en un aviso que le enviamos por correo a usted, o si somos los dueños de la empresa que le vendió los bienes o servicios).
2.	Usted debe haber utilizado su tarjeta de crédito para la compra. No califican las compras efectuadas con adelantos de efectivo de un cajero automático (ATM) o con un cheque con acceso a su cantidad de
tarjeta de crédito.
3. Usted todavía no debe haber pagado la totalidad de la compra.
Si cumple con todos los criterios anteriores y usted aún está disconforme con la compra, comuníquese con nosotros por escrito al domicilio de Atención al Cliente que se indica en su estado de cuenta de
facturación. Mientras investigamos, se aplican las mismas reglas a la cantidad disputada según se trató arriba. Luego de finalizar nuestra investigación, le informaremos nuestra decisión. Acto seguido, si creemos
que usted adeuda una cantidad y usted no paga, podemos reportarlo como atrasado.
Copyright ©2020 JPMorgan Chase & Co. Todos los derechos reservados.
14

ACUERDO DE ARBITRAJE
POR FAVOR, REVISE LOS EFECTOS IMPORTANTES EN SUS DERECHOS LEGALES
Este acuerdo de arbitraje establece que todas las disputas entre usted y Chase deben resolverse
mediante ARBITRAJE VINCULANTE cuando usted o nosotros decidamos presentar o derivar una disputa
a arbitraje. Al aceptar este acuerdo de arbitraje usted RENUNCIA A SU DERECHO A ACUDIR A UN
TRIBUNAL (salvo por los asuntos que puedan llevarse a un tribunal de demandas de menor cuantía). El
arbitraje se realiza DE FORMA INDIVIDUAL, por lo cual los pleitos de acción de clase (Class Action) y los
procedimientos similares NO estarán disponibles para usted.
USTED TIENE DERECHO A RECHAZAR ESTE ACUERDO DE ARBITRAJE, PERO SI DESEA RECHAZARLO,
DEBE HACERLO SIN DEMORA. Si usted no rechaza este acuerdo de arbitraje dentro de 60 días de la
apertura de la cuenta, de la manera que se describe a continuación, entonces:
• En el arbitraje, sus derechos serán determinados por un ÁRBITRO NEUTRAL y NO por UN JUEZ NI
UN JURADO.
• Los procedimientos de arbitraje son más simples y más limitados que las reglas que se aplican en
un tribunal.
•
Las decisiones del árbitro están sujetas a una REVISIÓN MUY LIMITADA POR PARTE DE
UN TRIBUNAL.
Si usted no rechaza este acuerdo como se describe a continuación dentro de 60 días de la apertura de
la cuenta, usted o nosotros podemos elegir resolver cualquier reclamación mediante arbitraje.
A los fines de este acuerdo de arbitraje, “usted” incluye cualquier cosolicitante o usuario autorizado de
su cuenta, o cualquier persona vinculada con usted o que presente una reclamación a través de usted;
“nosotros” incluye a JPMorgan Chase Bank, N.A. y Chase Bank USA, N.A., todas sus compañías matrices,
subsidiarias, afiliadas, sucesores, predecesores, empleados y personas o entidades relacionadas con la
misma, y todos los terceros que son considerados agentes o representantes nuestros en relación con la
cuenta, o el asunto de la reclamación o la disputa en cuestión.
Todas las reclamaciones o disputas entre usted y nosotros que se relacionen de cualquier manera con
su cuenta, cualquier cuenta previa, su Contrato de Tarjeta de Crédito con nosotros (incluida cualquier

15

enmienda futura), cualquier Contrato de Tarjeta de Crédito previo o nuestra relación se denominan
“reclamaciones” a los efectos de este acuerdo de arbitraje. Las reclamaciones incluyen, por ejemplo,
reclamaciones o disputas que surgen o se relacionan de cualquier modo con transacciones que
involucran su cuenta; cualquier interés, cargo o tasa que se cobre en su cuenta; cualquier servicio o
programa relacionado con su cuenta; cualquier comunicación relacionada con su cuenta; y cualquier
informe de cobro o crédito de su cuenta. Las reclamaciones también incluyen reclamaciones o disputas
que surgen o se relacionan de cualquier modo con materiales publicitarios, o la aplicación, la aprobación
y el establecimiento de su cuenta. Las reclamaciones están sujetas a arbitraje, independientemente de
que estén basadas en contrato, daños y perjuicios, estatuto, regulación, derecho común o equidad,
o si procuran remedios legales o en equidad. Todas las reclamaciones son sujetas a arbitraje,
independientemente de si estas surgieron en el pasado, puedan existir actualmente o puedan generarse
en el futuro. El arbitraje se aplicará incluso si su cuenta está cerrada, ha sido vendida o fue asignada;
usted nos paga la totalidad de cualquier deuda pendiente que deba; o se declara en quiebra. En caso de
que su cuenta sea vendida o asignada, nosotros conservaremos nuestro derecho a elegir el arbitraje de
las reclamaciones que usted haga y usted conserva su derecho a elegir el arbitraje de las reclamaciones
que nosotros hagamos.
• Si usted está cubierto por la Ley de Préstamos para Militares, entonces no quedará vinculado
mediante este acuerdo de arbitraje y, en la medida que lo requiera la Ley de Préstamos para
Militares, ninguna disposición de este acuerdo se considerará una renuncia al derecho de recurso
legal conforme a cualquier disposición de otro modo aplicable de la ley federal o estatal.
La única otra excepción al requisito de arbitraje es que usted tiene derecho a presentar una reclamación
ante un tribunal de demandas de menor cuantía, en lugar de resolverla mediante arbitraje, si la
reclamación corresponde a la jurisdicción de ese tribunal y se presenta a nivel individual.
Si usted inicia una reclamación mediante arbitraje, no se aplicará a esa reclamación ningún cambio en
los términos de este acuerdo de arbitraje que se efectúe después de que recibamos su reclamación.

La Ley Federal de Arbitraje (Federal Arbitration Act, “FAA”), Título 9, Artículos 1 et seq del Código de los
Estados Unidos (United States Code, U.S.C.) rige este acuerdo.
¿Puedo yo (el cliente) rechazar este acuerdo de arbitraje?
Sí. Usted tiene el derecho a rechazar este acuerdo de arbitraje si nos lo notifica dentro de 60 días de la
apertura de la cuenta. Debe hacerlo por escrito, estipulando que usted rechaza este acuerdo de arbitraje
e incluyendo su nombre, número de cuenta, dirección y firma personal. Debe enviarnos su notificación
por correo postal a P.O. Box 15298, Wilmington, DE 19850-5298. No se aceptarán ni tendrán vigencia
las notificaciones de rechazo enviadas a cualquier otra dirección, o enviadas por correo electrónico o
comunicadas oralmente.
¿Qué sucede con los pleitos de acción de clase (class action) o acciones representativas?
A veces, ciertas personas interponen demandas en representación de otras personas en situaciones
similares. Esto se denomina un pleito de acción de clase (Class Action). Los pleitos de acción de clase
(Class Action), otros procedimientos representativos similares y la consolidación de reclamaciones
(salvo de demandantes de la misma cuenta) no están disponibles bajo este acuerdo de arbitraje. Las
reclamaciones sujetas a arbitraje procederán de forma individual solamente. Además, usted no podrá
unir sus reclamaciones con otras personas de otras cuentas en el arbitraje; cada persona debe arbitrar
sus propias reclamaciones por separado.
A MENOS QUE USTED RECHACE ESTE ACUERDO DE ARBITRAJE, USTED Y NOSOTROS RENUNCIAMOS
AL DERECHO DE IMPONER O PARTICIPAR EN UN PLEITO DE ACCIÓN DE CLASE (CLASS ACTION), O
CUALQUIER PROCEDIMIENTO REPRESENTATIVO O CONSOLIDADO EN UN TRIBUNAL O EN ARBITRAJE.
El árbitro no tendrá autoridad para considerar cualquier reclamación como un pleito de acción de clase
(Class Action) u otro procedimiento representativo similar, ni tampoco tendrá ninguna autoridad para
consolidar reclamaciones presentadas por demandantes separados (salvo demandantes de la misma
cuenta). Para ser claros, esto significa que el árbitro tampoco tendrá autoridad para otorgar laudos
para el beneficio o en contra de cualquier persona que no sea la parte nombrada. Si estos términos
que prohíben pleitos de acción de clase, representativos o de consolidación se consideran legalmente
inexigibles por cualquier motivo con respecto a una reclamación, la reclamación debe procesarse
mediante litigio en tribunal en lugar de hacerlo mediante arbitraje.

¿Cómo funciona el arbitraje?
El arbitraje es diferente de una demanda en un tribunal estatal o federal. El arbitraje es llevado a cabo
por organizaciones privadas que se especializan en resoluciones alternativas de disputas y ante un
árbitro neutral en lugar de un juez o un jurado. Generalmente, los procedimientos de arbitraje son más
simples e informales que los procedimientos de tribunal. Por ejemplo, el descubrimiento de pruebas
es más limitada en el arbitraje que en un tribunal. Además, las decisiones del árbitro están sujetas
solo a revisiones limitadas por parte de un tribunal. Como se analizó anteriormente, es posible que
determinados derechos que usted pueda tener ante un tribunal no estén disponibles en el arbitraje. Al
mismo tiempo, en el arbitraje, usted tiene derecho a obtener un reembolso de los honorarios de los
abogados de nuestra parte del mismo modo que en un tribunal.
Bajo este acuerdo de arbitraje, la parte que presenta una reclamación debe seleccionar a Judicial
Arbitration and Mediation Services (“JAMS”) o a la Asociación Americana de Arbitraje (American Arbitration
Association, “AAA”) como el administrador del arbitraje. Usted puede obtener más información sobre
estas organizaciones por internet, en las direcciones que se proporcionan a continuación. Cada una de
estas organizaciones aplicará el código de procedimientos que esté vigente al momento de presentar
la reclamación que origina el arbitraje. Si hubiera un conflicto entre el código de procedimientos y la
presente disposición sobre arbitraje o cualquier sección de este acuerdo, la presente disposición sobre
arbitraje o este acuerdo prevalecerán. Si JAMS o la AAA no pueden o no están disponibles para oficiar
como árbitros en la reclamación por cualquier motivo, el caso será arbitrado por un árbitro neutral, el
cual será elegido por acuerdo de las partes (o, si las partes no llegan a un acuerdo, será elegido por un
tribunal de conformidad con la Ley Federal de Arbitraje).
Un solo árbitro designado por el administrador del arbitraje tomará una decisión respecto de la
reclamación en virtud de la ley aplicable. El árbitro quedará vinculado por los términos del presente
acuerdo de arbitraje. El árbitro tomará decisiones respecto de todos los asuntos, salvo los asuntos
relacionados con el alcance, la capacidad de cumplimiento, la interpretación, la formación y la validez de
este acuerdo de arbitraje que serán decisión de un tribunal. El árbitro respetará todas las reclamaciones
de privilegio reconocidas por ley. Sujeto a la prohibición de procedimientos de clase, representativos y
de consolidación establecida anteriormente, el árbitro tendrá el poder de otorgar a una parte cualquier
resarcimiento por daños o perjuicios u otra reparación que la ley aplicable otorgue. Es decir, una parte

tendrá derecho a recibir en el arbitraje cualquier resarcimiento por daños o perjuicios u otra reparación
que podría recibir si prevaleciera en un procedimiento de tribunal como individuo. Ningún laudo o
decisión del arbitraje tendrá un efecto preventivo sobre asuntos o reclamaciones de procedimientos
subsecuentes más allá de la reclamación en cuestión. La autoridad del árbitro está limitada a
reclamaciones entre usted y nosotros, y el árbitro puede otorgarle resarcimiento por daños o perjuicios
u otra reparación solamente a usted, pero no a nadie más ni en representación de alguien más.
Si bien según algunas leyes es posible que tengamos derecho a un reembolso de los gastos y honorarios
de los abogados si prevaleciéramos, nosotros acordamos no solicitar dicho reembolso.
Si su reclamación es por $10,000 o menos, usted puede elegir si el arbitraje será realizado solamente
sobre la base de documentos, mediante una audiencia telefónica o en una audiencia en persona.
Cualquier audiencia en persona tendrá lugar en el distrito judicial federal que incluye su dirección al
momento de presentar la reclamación, a menos que las partes acuerden otro lugar.
¿Es definitiva la decisión del árbitro? ¿Hay un proceso de apelación?
La decisión del árbitro será definitiva y vinculante para las partes. El laudo del árbitro consistirá en una
declaración escrita que establecerá la disposición de cada reclamación. A solicitud de cualquier parte,
el árbitro también brindará una explicación por escrito de los resultados esenciales y las conclusiones
en las cuales se basa el laudo.
Cualquiera de las partes puede presentar una apelación por escrito al administrador del arbitraje en un
plazo de 30 días después de que se emita el laudo. La apelación procederá frente a un panel de tres
árbitros neutrales, designados por el mismo administrador del arbitraje. Ese panel considerará todos los
asuntos legales y reales de nuevo, y tomará todas las decisiones y otorgará todos los laudos por voto
mayoritario según los documentos y el registro de arbitraje sin una audiencia. La Ley Federal de Arbitraje
regirá cualquier revisión realizada por un tribunal. Cualquier laudo de arbitraje definitivo será vinculante
para las partes en el proceso y ejecutable por cualquier tribunal que tenga jurisdicción.

¿Quién pagará los costos?
17
Nosotros pagaremos todos los costos que tengamos la obligación de pagar de acuerdo con las normas
de procedimiento del administrador del arbitraje. Incluso si no se nos exigiese de ninguna manera, le
reembolsaremos a usted hasta un máximo de $500 por cualquier gasto inicial que haya pagado por
la presentación de la reclamación ante arbitraje. También pagaremos los honorarios del árbitro y del
administrador del arbitraje durante los dos primeros días de cualquiera audiencia. Si usted gana el
arbitraje, nosotros le reembolsaremos los honorarios que haya pagado a la organización encargada del
arbitraje o al árbitro o a ambos. Cualquier otro gasto será asignado de conformidad con las normas del
administrador del arbitraje y la ley aplicable. Si considera que no puede pagar ningún gasto que debería
pagar usted al administrador del arbitraje, usted puede solicitar que le paguemos o le reembolsemos a
ellos, y consideraremos su solicitud de buena fe.
Usted puede representarse a sí mismo durante el arbitraje o puede ser representado por un abogado.
Excepto según lo descrito anteriormente, usted será responsable de los costos y honorarios de sus
propios abogados.
¿Cómo puedo yo (el cliente) presentar una reclamación de arbitraje?
En JAMS (800 352-5267 o jamsadr.com) o en AAA (877 495-4185 o www.adr.org), pueden obtenerse
las normas y los formularios, y pueden presentarse las reclamaciones. Estos dos administradores
poseen reglas particulares en el caso de arbitraje iniciado por un consumidor.
Copyright ©2020 JPMorgan Chase & Co. Todos los derechos reservados.

CFB00844

19

